<html>
<title> - H.R. 2086, THE OFFICE OF NATIONAL DRUG CONTROL POLICY REAUTHORIZATION ACT OF 2003</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
 H.R. 2086, THE OFFICE OF NATIONAL DRUG CONTROL POLICY REAUTHORIZATION 
                              ACT OF 2003

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   ON

                               H.R. 2086

       TO REAUTHORIZE THE OFFICE OF NATIONAL DRUG CONTROL POLICY

                               __________

                              MAY 22, 2003

                               __________

                           Serial No. 108-27

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
88-015 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 22, 2003.....................................     1
Text of H.R. 2086................................................     5
Statement of:
    Walters, John P., Director, Office of National Drug Control 
      Policy.....................................................    47
Letters, statements, etc., submitted for the record by:
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statement of...................   103
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia, prepared statement of...................     3
    Ose, Hon. Doug, a Representative in Congress from the State 
      of California, prepared statement of.......................    72
    Towns, Hon. Edolphus, a Representative in Congress from the 
      State of New York, prepared statement of...................    68
    Walters, John P., Director, Office of National Drug Control 
      Policy:
        Information concerning Federal seizures..................    65
        Information concerning minority subcontractors...........    98
        Prepared statement of....................................    53


 H.R. 2086, THE OFFICE OF NATIONAL DRUG CONTROL POLICY REAUTHORIZATION 
                              ACT OF 2003

                              ----------                              


                         THURSDAY, MAY 22, 2003

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:28 a.m., in 
room 2154, Rayburn House Office Building, Hon. Tom Davis of 
Virginia (chairman of the committee) presiding.
    Present: Representatives Tom Davis of Virginia, Mica, 
Souder, Ose, Lewis of Kentucky, Mrs. Davis of Virginia, Platts, 
Putnam, Schrock, Deal, Miller, Murphy, Turner, Carter, 
Blackburn, Waxman, Owens, Towns, Sanders, Maloney, Cummings, 
Kucinich, Davis of Illinois, Tierney, Clay, Watson, Van Hollen, 
Sanchez, Ruppersberger, Norton, and Bell.
    Staff present: Scott Kopple, deputy director of 
communications; Edward Kidd, professional staff member; Teresa 
Austin, chief clerk; Joshua E. Gillespie, deputy clerk; Susie 
Schulte, legislative assistant; Corinne Zaccagnini, chief 
information officer; Brien, Beattie, staff assistant; Phil 
Barnett, minority chief counsel; Michelle Ash and Tony Haywood, 
minority counsels; Denise Wilson, minority professional staff 
member; Earley Green, minority chief clerk; and Jean Gosa and 
Teresa Coufal, minority assistant clerks.
    Chairman Tom Davis. The committee will come to order. I 
apologize for the delay, this is the latest I've ever started a 
meeting.
    Mr. Waxman and subcommittee Chairman Souder are in the 
back, will be reviewing this, trying to negotiate some items 
for markup we hope we can hold today. But we're just a little 
bit apart on some issues and we're trying to work it out.
    So I will ask unanimous consent that my entire statement be 
in the record to move this along.
    Let me just say that Chairman Souder has held a series of 
hearings at the subcommittee level evaluating every component 
and program carried out by ONDCP to ensure that when we 
authorize this, we get it right. I want to thank him for his 
leadership on these issues, also his ranking member, Elijah 
Cummings. My state-
ment is much lengthier, it will go in the record. But because 
we've kept Director Walters waiting here, I will conclude my 
formal remarks at this point and see if there are other Members 
who wish to make opening statements.
    [The prepared statement of Chairman Tom Davis and the text 
of H.R. 2086 follow:]
[GRAPHIC] [TIFF OMITTED] T8015.001

[GRAPHIC] [TIFF OMITTED] T8015.002

[GRAPHIC] [TIFF OMITTED] T8015.100

[GRAPHIC] [TIFF OMITTED] T8015.101

[GRAPHIC] [TIFF OMITTED] T8015.102

[GRAPHIC] [TIFF OMITTED] T8015.103

[GRAPHIC] [TIFF OMITTED] T8015.104

[GRAPHIC] [TIFF OMITTED] T8015.105

[GRAPHIC] [TIFF OMITTED] T8015.106

[GRAPHIC] [TIFF OMITTED] T8015.107

[GRAPHIC] [TIFF OMITTED] T8015.108

[GRAPHIC] [TIFF OMITTED] T8015.109

[GRAPHIC] [TIFF OMITTED] T8015.110

[GRAPHIC] [TIFF OMITTED] T8015.111

[GRAPHIC] [TIFF OMITTED] T8015.112

[GRAPHIC] [TIFF OMITTED] T8015.113

[GRAPHIC] [TIFF OMITTED] T8015.114

[GRAPHIC] [TIFF OMITTED] T8015.115

[GRAPHIC] [TIFF OMITTED] T8015.116

[GRAPHIC] [TIFF OMITTED] T8015.117

[GRAPHIC] [TIFF OMITTED] T8015.118

[GRAPHIC] [TIFF OMITTED] T8015.119

[GRAPHIC] [TIFF OMITTED] T8015.120

[GRAPHIC] [TIFF OMITTED] T8015.121

[GRAPHIC] [TIFF OMITTED] T8015.122

[GRAPHIC] [TIFF OMITTED] T8015.123

[GRAPHIC] [TIFF OMITTED] T8015.124

[GRAPHIC] [TIFF OMITTED] T8015.125

[GRAPHIC] [TIFF OMITTED] T8015.126

[GRAPHIC] [TIFF OMITTED] T8015.127

[GRAPHIC] [TIFF OMITTED] T8015.128

[GRAPHIC] [TIFF OMITTED] T8015.129

[GRAPHIC] [TIFF OMITTED] T8015.130

[GRAPHIC] [TIFF OMITTED] T8015.131

[GRAPHIC] [TIFF OMITTED] T8015.132

[GRAPHIC] [TIFF OMITTED] T8015.133

[GRAPHIC] [TIFF OMITTED] T8015.134

[GRAPHIC] [TIFF OMITTED] T8015.135

[GRAPHIC] [TIFF OMITTED] T8015.136

[GRAPHIC] [TIFF OMITTED] T8015.137

[GRAPHIC] [TIFF OMITTED] T8015.138

[GRAPHIC] [TIFF OMITTED] T8015.139

[GRAPHIC] [TIFF OMITTED] T8015.140

    Mr. Towns. What's the rush, Mr. Chairman?
    Chairman Tom Davis. We'll hear testimony that they are 
eager to get this reauthorized. We've had a time line people 
have agreed to. And unlike maybe some legislation we worked 
before, this was the original time line with hearings and 
everything to move this through. But you know, if we can't work 
issues out, we don't have to do it, if that's the issue. But I 
don't think we're rushing this. I think we started hearings on 
this, this committee has had two trips to Colombia we've 
invited members to go through. So I don't think it's a rush. 
But I think we're on schedule.
    Mr. Towns. But reclaiming my time, if it's not due to be 
reauthorized until September, I don't understand why we have to 
have a hearing and a markup today.
    Chairman Tom Davis. Well, we've had hearings at the 
subcommittee level and the subcommittee has marked it up. And 
again, we don't have to, but our original line was to try to 
get this marked up in committee to go to the floor after 
Memorial Day recess. One of the difficulties comes in the 
conference. Once we mark it up here, to get September, June and 
July we'll have June and July to move it through to the floor 
and move it through a Senate conference and bring it back to 
the floor. If we miss that, then the law doesn't get extended 
in September.
    So to meet those goals, that's our intention. That's not to 
say if we had to, we couldn't do it later. But this was the 
time line. The subcommittees have spent some extensive time on 
this, and they are again negotiating out some final wording 
with Mr. Waxman and Mr. Cummings right now, with Chairman 
Souder. But that's why the delay. If we wait and mark this up 
in June, which would be the alternative, by then we have to 
move it to the floor a week later, it's that much altered 
before we can sit down with the Senate, whenever their time 
schedule is a similar schedule, and then bring it back. 
Hopefully the conference can conclude by the end of July. If it 
doesn't, then we go past the authorization period.
    That's it. I mean, again, if we don't work this language 
out toady, we'll kick it over. Our schedule tried, at least the 
House to do its part, so we can have this thing ready for 
conference at the earliest possible date.
    Mr. Towns. I yield back.
    Chairman Tom Davis. OK. Any other Members wish to make a 
statement? Mr. Mica, you've been very active on this.
    Mr. Mica. Thank you, Mr. Chairman. And I look forward to 
hearing Mr. Walters' comments today and also to the markup. It 
is important that we move forward on this legislation that will 
reauthorize our national drug control policy through 2008. I do 
have some concerns and I know that they're being addressed, 
hopefully at this moment, about providing flexibility to the 
drug czar.
    The program started off as far as media campaign with some 
bumps in the road, and there were some missteps. I think if 
each of us wanted to design a program, we might design it a 
little bit differently. I think Mr. Walters has done an 
incredible job in right-sizing this program which is so 
important to our youth and parents and others. So I would like 
to see him have the flexibility necessary, and I hope we can 
negotiate that as we move forward with this. And it does take a 
while to get this through, but it is important.
    There are other provisions in here that are so important to 
HIDTA and proper operation of HIDTA. We've spent some money, 
because of political pressures and others, where maybe we 
shouldn't. The drug czar needs authority to make certain that 
these funds are properly expended and in communities that need 
that assistance. There are a whole host of issues here, and the 
drug czar's ability to focus on not only prevention and 
education but interdiction, the international programs that are 
so important.
    So as former chair of the subcommittee, I'm pleased we're 
moving forward. I hope we can wrap this up. And again finally, 
I do hope that we can give him the flexibility to do what needs 
to be done during this reauthorization period. I yield back.
    Chairman Tom Davis. Thank you very much.
    Do any other Members wish to make statements? Members will 
have 5 legislative days to submit opening statements for the 
record.
    I'd like to recognize our witness, John P. Walters, the 
director of the White House Office of National Drug Control 
Policy. It's the policy of the committee to swear you in before 
your testimony. Will you rise with me and raise your right 
hand?
    [Witness sworn.]
    Chairman Tom Davis. Thank you very much. You can go ahead 
with your statement. We'd like to keep it to 5 minutes, but 
frankly, if you need to go over a couple minutes, you're our 
only witness today. We want to give you ample time. Your total 
statement is in the record. And then we'll go on, I think 
Members will have a lot of questions.
    So thank you for being with us. Again, I apologize for the 
delay.

STATEMENT OF JOHN P. WALTERS, DIRECTOR, OFFICE OF NATIONAL DRUG 
                         CONTROL POLICY

    Mr. Walters. No apology necessary.
    Thank you very much, Mr. Chairman. I appreciate your work, 
Ranking Member Waxman, subcommittee Chairman Souder, and the 
ranking subcommittee member, Mr. Cummings. This is the 
culmination of a lot of hard work by many of you with whom I've 
met. Many of you have traveled, individually and with us, 
looking at this problem. We've benefited from your advice and 
counsel, as well as your support for these programs.
    I appreciate the speed with which you have pursued this 
because we not only have the office, but one of the programs in 
the office that's important that we have now, are lacking full 
authorization and are continued as a result of appropriations 
language. Obviously we'd like to try to have these foundations 
as stable as possible.
    In February of last year, the President announced the 
ambitious goals of reducing drug use by 10 percent in 2 years 
and 25 percent in 5 years. We had an initial progress report in 
the 2003 strategy that was released earlier this year. The good 
news is we have a decrease in youth drug use. Teen use is 
headed in the right direction again, down. Last December, 
monitoring the future survey found that use of illicit drugs in 
the past year decreased by a statistically significant amount 
for 2001 to 2002 among 8th and 10th graders. Percentages of 8th 
and 10th graders using illicit drugs were their lowest level 
since 1993 and 1995 respectively.
    In addition, we've had reports of historic successes in our 
efforts to control the supply from key sources outside our 
country. The latest cultivation figures from Colombia show that 
coca cultivation, the source of most of the, if not the vast 
majority of cocaine coming into the United States, has declined 
by a historic 15 percent last year. Overall, Indian region 
production of cocaine reduced by 12 percent. That's over 100 
metric tons of cocaine that was not flowing to the United 
States and other places.
    In addition, last year we now have data showing a reduction 
in poppy cultivation for heroin of 40 percent in Mexico and 25 
percent in Colombia. This corresponds with a 6 percent 
wholesale purity reduction we saw in imports into the United 
States. We are making initial, although we need to follow 
through, significant progress, we believe, on both supply and 
demand. We need to expand it to more areas, and as I say, most 
important of all, we need to follow through.
    The administration has proposed for fiscal year 2004 a 
budget of $11.7 billion for drug control programs. It focuses 
on three areas, as you asked in your letter of invitation for 
me to summarize. I'll do that briefly and then touch on the 
points with reauthorization that I'd like to ask your 
consideration on and then be happy to take your questions.
    Our strategy is three parts. I'll begin first and foremost 
with stopping drug use before it starts. Everybody that looks 
at this understands prevention is the best way to avoid the 
terrible consequences of drug use for too many of our 
communities. We also have long research that shows if young 
people do not start using dangerous addictive substances in 
their teenage years, they're unlikely to go on and use later. 
Our task is in one sense simple and commonsensical: don't 
expose our children and our young people as they pass to 
adulthood to these things and we will change the dimension of 
this problem for generations to come. The task is to do what 
common sense tells us.
    We have made an effort to strengthen our prevention 
programs in the year, a little more than a year that we've been 
reviewing with Congress these efforts. We have tried to 
strengthen the media campaign, which I'll touch on in a moment. 
We have tried to strengthen what we do with community 
coalitions to bring these efforts together and we are trying 
with the Department of Education to strengthen programs that we 
provide to individual schools.
    Our second priority is to heal America's drug users. The 
President has committed a historic $1.6 billion to additional 
Federal treatment spending for 5 years. As a part of this in 
the State of the Union, with this budget, we have requested an 
additional $600 million over 3 years for a targeted treatment 
effort to reach more people who need and are not getting 
services, and to improve the quality of services.
    We estimate now that there are roughly 6 million Americans 
who have a dependency or abuse problem such that they need 
treatment from illegal drugs; 23 percent of them are teenagers. 
We've never had estimates with that high a percentage being 
that young part of the population. We need to expand capacity, 
we need also to more intensively look at the problem as it 
exists among teenagers in the United States.
    In part to do that, we have been working with the 
Department of Education with the help of many Members of 
Congress at expanding knowledge of student drug testing where 
there have been problems. The old view was student drug testing 
was punitive, it was a way of punishing kids who already had 
trouble. The law in practice is radically different today. It's 
confidential, it's a way of finding kids who have trouble 
before that trouble gets so bad that they drop out and are 
involved in more harm in getting them the help that they need.
    Schools that have done this for this reason and have saved 
lives. And for schools that have had deaths, and I've been to 
some of your districts and we've talked about this, have had 
deaths of kids from overdose, where parents feel they have to 
be standing by and watching victims, we don't. We have a tool. 
It's got to be done and implemented with the consent and the 
support of institutions in the community. But it is a tool that 
will help save lives. We want to make that tool more available 
as one part of what we do to reach the teenagers who need 
treatment in this country.
    In addition, a third part of our effort has been to reduce 
the market for drugs. In addition to what we've done 
internationally, we have worked at bringing law enforcement, 
Federal, State and local together in a more systematic and 
direct effort on the markets that are the drug trade in 
America. We have combined for the first time all Federal, State 
and local task force information on the major drug trafficking 
structures.
    We want to do to this what, frankly, legitimate business 
worries Government's going to do to them, to use the regulatory 
and criminal power of Government to make it increasingly 
impossible for the business to operate at its current level. 
You've given us new tools in connection with terror at our 
borders, with intelligence sharing, with moneys to expand the 
work of law enforcement. We're trying to implement those more 
effectively here.
    Let me just touch on a couple of items that are pertinent 
to the markup at this point. First of all, I'd like to thank 
everyone that's been involved for both the extensive 
consideration of the work of my office and for the measures 
that have been put into the draft and the markup from the 
subcommittee. The vast majority of what's in that bill will be 
helpful to us and we support entirely.
    There are a couple of areas where I'd ask for your 
consideration as you review and mark up from the full 
committee. First, the media campaign. As you mentioned, Mr. 
Chairman, the campaign has been the subject of some criticism 
in the past. Everyone wants this to work, everybody believes 
the advertising we use in business, the advertising we use to 
inform people in elections, the advertising that we use in 
other areas of public safety and health needs to be better used 
here if we can. The question was, could we get it right.
    We are currently spending nearly three quarters of the 
media campaign money on advertising and at my direction, that 
advertising and the campaign's activities were changed in a 
number of ways to improve the performance of the campaign. 
First, I had more direct involvement in the development of the 
ads and the content of the ads, with our partners and their 
execution. Second, I required testing. The ads before were not 
focus group tested as effectively as I thought they should have 
been before they went on the air. As a result, I believe in 
some cases we had content that was not very powerful. And we 
need to have as powerful an ad, I think we all agree, as we can 
get. That's now happening.
    We refocused the age group from lower and subteens to mid-
teens, so that we could put on more powerful and appropriate 
ads at an age group where we know substance abuse doubles, 
between middle school and high school. We cannot forget about 
young people. We also cannot forget that mid-teens is a very 
large area of initiation and expanded use.
    Fourth, I asked that the campaign focus on marijuana. 
Marijuana accounts for over three quarters of illegal drug use. 
More young people, teenagers, seek treatment for marijuana 
dependency in this country than for all other illegal drugs 
combined. In the last 2 years, more teenagers have sought 
treatment for marijuana dependency than for alcohol dependency 
nationwide. We have had a view in too many cases that has 
under-appreciated the danger and the role that marijuana plays 
in the substance abuse problems of this country. We need to 
correct that. So we focused additional ads on the major 
substance of consumption and dependency among the illegal 
drugs.
    Today we will release, and we're making it available to 
committee staff, a report that is the preliminary findings of 
attitude tracking study of the media campaign changes since 
last year. This too is good news. I'll summarize some of it 
just briefly here, and we'll provide the full report to the 
staff. Again, this is a preliminary report that Congress asked 
because they wanted to see whether the changes were working.
    Not only is youth marijuana use down substantially over the 
course of the year, between 2002 and 2003, there's direct 
relationship between exposure to anti-drug advertising and the 
improved attitudes and drug use behavior. Past year marijuana 
use among youth grades 6 through 12 dropped fully 13 percent 
between 2002 and 2003, according to this preliminary report. 
Our primary media campaign targets youths in grades 9 through 
11, use dropped 16 percent.
    Further, there's a direct relationship between exposure to 
the media campaign, marijuana advertising and positive results. 
Youth who reported high exposure to the campaign's marijuana 
ads were significantly less likely than those who reported 
seeing none of the ads to report using drugs in the last year. 
In fact, they were 22 percent less likely.
    Similarly, for past month marijuana use, those with high 
exposure to our ads were a remarkable 38 percent less likely to 
report past month marijuana use than those kids who had no 
exposure. Youths with high exposure to marijuana TV ads versus 
those with no exposure were likely to perceive great risk and a 
number of negative consequences to marijuana use. Marijuana use 
is seen as highly risky, and youths were significantly less 
likely to want to hang around those who used marijuana by 
nearly a 20 percent change between the 2-years.
    These numbers are preliminary. We will learn more about the 
picture as more data becomes available. But they are very 
encouraging. It is important to note that in the past, the 
attitude tracking survey has tracked very closely with other 
important surveys, such as monitoring the future. Taken 
together, the recent results from monitoring the future, the 
annual pride survey of youth, and now the attitude tracking 
survey strongly suggests that there is a new dynamic in our 
effort against illicit drug use in our schools and communities. 
Young people are getting the message and they are changing 
their behavior for the better.
    We have tried to use the advice of experts who try to 
change behavior through such marketing and such advertising to 
tell us what works more effectively. We have had extensive 
discussions, of course, with staff and Members of Congress as 
is appropriate. We have tried to reinforce the media messages 
with a full range of state-of-the-art support, through Web 
sites, guides, fact sheets, and supporting materials so that 
people who get the message and are concerned about how to 
respond can get more detailed messages and it can be put on 
immediately in one small spot or advertisement.
    We have sought the flexibility and used the flexibility to 
manage the campaign to make changes that will improve 
effectiveness and to expand the techniques that will help to 
make the messages more powerful and more effective. We are 
looking now at the latter part of this year, we're developing 
with experts an additional flight of ads, not a substitute for 
all for what's going on, that will look at early intervention 
for those people who are beginning to have substance dependency 
problems. This will require some additional information about 
referral to treatment and support.
    We want to use the campaign to help change the attitudes 
about drug dependency. In too many cases, this disease is made 
worse because people look the other way. We want to try to 
change attitudes, so that people help save more lives early, 
and they support recovery and they support treatment and they 
support getting people who are in recovery back into the 
mainstream of society. That is a portion of what we want to do 
with the future.
    Let me turn now briefly to the High Intensity Drug 
Trafficking Area program. This program was initially funded at 
$25 million for the first five HIDTAs back in President Bush's 
father's administration. I was there when this was originally 
started. Today there are 28 HIDTAs, and the program now 
receives $225 million for fiscal year 2003.
    Over the course of its creation, parts of the program have 
lost their focus. They have tended to drift from focusing on 
the targets of high intensity drug trafficking operations that 
fan out into larger areas and drifted to various other 
priorities, all perhaps worthy but not a tool that fully and 
effectively, in our judgment, has done what it needs to do.
    And in the judgment of many in Congress, the results and 
effectiveness of this program, the results of the review with 
OMB and my office, were we had to have better results. If this 
is going to be simply a revenue sharing program, as many of you 
know, while the 28 sites are valuable, a national revenue 
sharing program is more fair. So the goal of this program is to 
help the whole Nation through the focus on particular points of 
particular trafficking and marketing.
    We have tried to do that. I've met with most of the HIDTAs, 
the Federal, State and local officials that are part of their 
executive boards, and I have tried to lay down guidelines that 
will provide focus, results, evaluation and can show you 
difference. We have created a consolidated priority targeting 
system at the Federal level that we are working with the HIDTAs 
to also deploy in appropriate manners. Again, here what we're 
trying to do is provide resources for results and results that 
look at the--integrate into the national problem.
    I appreciate the efforts by the committee and the 
subcommittee to try to help us with that focus. We'd like to 
make sure, though, that any restraints and constrictions still 
allow us to in an overall manner focus on making a difference 
in the trafficking organizations that operate in key areas 
around the United States. That has to be, we believe, the key. 
There is between this and the OCDETF programs are the key 
programs, and we've been working with the Attorney General to 
get them to focus more directly, because we believe we can make 
a difference.
    In conclusion, let me say that I appreciate all the hard 
work. I visited a number of you in your districts. I have met 
with a number of you separately. I know that you, in addition 
to all your other responsibilities, work in your communities to 
help support these efforts. We are going to try to join with 
you more aggressively in the months ahead, as my staff goes 
into major areas around the country to help bring together 
those who are working on this problem, demand and supply 
program, and local efforts.
    I think the evidence now is we are beginning to see a 
change for the better. We have done this in the past, we need 
to continue. The problem has been follow-through. And I 
appreciate the hard work that you've done on this 
reauthorization. I ask only that what you do in adding or 
subtracting from the tools we use, give us the ability to 
continue and follow through.
    Thank you for this time, thank you for hearing me at this 
time. I'll be happy to answer any questions.
    [The prepared statement of Mr. Walters follows:]
    [GRAPHIC] [TIFF OMITTED] T8015.003
    
    [GRAPHIC] [TIFF OMITTED] T8015.004
    
    [GRAPHIC] [TIFF OMITTED] T8015.005
    
    [GRAPHIC] [TIFF OMITTED] T8015.006
    
    [GRAPHIC] [TIFF OMITTED] T8015.007
    
    [GRAPHIC] [TIFF OMITTED] T8015.008
    
    [GRAPHIC] [TIFF OMITTED] T8015.009
    
    [GRAPHIC] [TIFF OMITTED] T8015.010
    
    [GRAPHIC] [TIFF OMITTED] T8015.011
    
    [GRAPHIC] [TIFF OMITTED] T8015.012
    
    Chairman Tom Davis. Thank you very much. We'll have a 
number of questions for you. Again, Mr. Walters, your entire 
statement is in the record.
    I thank the Members for bearing with me. Mr. Mica, would 
you like to start the questioning?
    Mr. Mica. Thank you, Mr. Chairman.
    Mr. Walters, you brought us some good news today about 
decreases in the teen use, and cited specifics. Over the years, 
we've seen the drug problem as one where we push down in one 
area, it's sort of like Jello, and it pops up some place else. 
What's the situation with substituting, say, marijuana or 
cocaine, for designer drugs or heroin or some other illegal 
narcotic?
    Mr. Walters. We have tried to more carefully map what's 
happening for precisely that reason. I think there is the view 
that we have failed to make overall progress because any 
particular progress is offset by losses in other areas.
    Overall, there are dangers we have to watch, with ecstasy 
use, methamphetamine use, heroin use has increased in the 
northeastern United States especially. But what we've tried to 
do is focus on those key markets as markets and the 
vulnerabilities there. We have had some success in some areas 
reducing methamphetamine growth. Yesterday I was at a meeting 
hosted by the Attorney General and Solicitor General of Canada 
where we're working partly on problems of pseudoephedrine 
diversion from Canada. Estimates are that pseudoephedrine from 
Canada is supplying major pseudoephedrine for the large labs 
that produce 85 percent of the methamphetamine in this country.
    We just had a recent joint operation that closed down three 
major operations that were diverting from Canada. We hope this 
will have an effect. Overall we're trying to hit a bunch of 
these drugs. We do not have movement in terms of the use 
numbers that show a shifting. But we are trying to prevent them 
from becoming a shifting.
    Mr. Mica. Your preliminary data showed that young people, I 
guess it was confined to, were 38 percent less likely to use 
drugs if they had exposure to your program. Is that your 
initial finding?
    Mr. Walters. Yes, that's with regard to marijuana. Yes.
    Mr. Mica. So it does have some impact, and that's only in 
regard to marijuana, it's not other narcotics?
    Mr. Walters. We asked them to measure marijuana, because 
the large flight of ads that we started last year with the 
revision were focused on marijuana. So we will have other 
surveys coming up in the coming months that are other national 
surveys that focus on the full range of drugs. But the effort 
for this report, I want to be clear about, was the question, is 
the media campaign working and are the changes that you made 
producing the results. And we made the focus marijuana and this 
is the first half of the large report of attitude tracking. The 
second half will be available in a little over a month.
    Mr. Mica. In addition to the media campaign, of course, our 
subcommittee helped draft Plan Colombia and we want Plan 
Colombia to work. If I understand also you had good news in 
regard to diminishing the cultivation of coca crops. However, 
from some reports, we have a problem now with heroin. You also 
cited some statistics. Was that the U.S. entry of heroin, 40 
percent from Mexico now and 45 percent Colombia?
    Mr. Walters. No. The numbers I cited were our survey 
reports of cultivation of opium poppy. A 40 percent reduction 
between 2001 and 2002 in Mexico, and a 25 percent reduction in 
Colombia.
    Mr. Mica. Twenty-five percent during what period?
    Mr. Walters. Between 2001 to 2002.
    Mr. Mica. There is concern again that we have a major 
emphasis in one area and then it pops up in the other area. We 
do this, it's not DNA, but, my head's a little foggy right now 
from this head cold, but we do an analysis of the heroin that's 
coming into the United States. Where is it coming in from now? 
We used to be able to tell almost from the field as to Mexico, 
Colombia or other sources.
    Mr. Walters. DA is what I think you're referring to, it's 
the heroin signature program.
    Mr. Mica. Heroin signature program, yes.
    Mr. Walters. They analyze the elements in the heroin 
samples that are seized to determine where they were processed.
    Mr. Mica. What's our latest?
    Mr. Walters. Roughly the estimate is--we won't have a 
precise estimate on the basis of consumption. It's only on the 
basis of seizure. Some of these organizations, it's easier for 
us to target organizations in this hemisphere. But generally 
speaking, the heroin available in the eastern part of the 
United States has been largely Colombian heroin is the 
estimate. It's now moved a little bit more west, for example, 
into Chicago. Mexican heroin has dominated the West Coast 
market.
    Mr. Mica. We were getting figures, and I haven't seen them 
in some time, again like we had 90 percent from Colombia, well, 
we had zero percent before the beginning of the Clinton 
administration, because most of it came from the far east. And 
then we saw it gradually increase in Colombia. Can you give us 
the latest statistic you have on the seizures and where they 
come from? Because we know we can analyze it through the 
signature program?
    Chairman Tom Davis. This will be the last question, because 
the gentleman's time has expired.
    Mr. Walters. I'd like to supply the specifics for the 
record, just because the numbers have to be added, not only in 
terms of the seizures but also in terms of what people think is 
out there. Because the seizures only reflect the organizations 
that we're working. But basically it's about half.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T8015.013
    
    Mr. Mica. Again, Mr. Chairman, for the record, in the past, 
we've gotten this. I'd like to see that. I think it's very 
important. We have some historical data so we can see where the 
stuff is coming from. As I understand, it's pretty accurate. 
Because it's seized, analyzed, and we know almost to the fields 
where it came from.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much. Mr. Waxman.
    Mr. Waxman. Let one of the other Members go ahead.
    Chairman Tom Davis. All right. I'll go to Mr. Towns.
    Mr. Towns. Thank you very much, Mr. Chairman.
    You know, as I indicated, I'm still concerned about moving 
ahead here today. But in spite of that, I'm going to raise a 
couple of questions. The proposed reauthorization legislation 
would require that 80 percent, Mr. Walters, of appropriated 
program funds go to purchasing time and space for advertising. 
What effect would this mandate have on your ability to direct 
the agency as you see fit?
    Mr. Walters. Consistent with the concern that has been 
expressed in the past that the media campaign was not effective 
because it wasn't doing enough advertising, we have increased 
the focus as you know. The campaign gets $1 of free advertising 
for every $1 it buys. It's unique in that regard. And we have 
taken more of the matched dollar and put them into the central 
advertising component.
    We've asked for some flexibility. Right now it's about 
between 74 and 75 percent of the ad dollars are spent this way. 
So this is close. But the concern that I have in trying to 
maintain flexibility here, it's not that we don't want to have 
maximum power, it's that we want to make sure that we're doing 
the other marketing that could support the advertising, getting 
people to Web sites, getting people brochures, getting people 
the hot lines that may get them additional information.
    And to allow us to use, again what you categorize as 
advertising here can also make a difference. So there's a 
variety of ways to compromise on this. All I've asked is that 
we have flexibility to try to drive the campaign where it will 
have the best effect. So I think priority limits create some 
greater complication in managing the campaign.
    Mr. Towns. I know that most of your campaigns in the past 
have basically been don't do drugs, which is a very important 
issue and a very important message. But what about the young 
people who are already hooked on drugs? What do you have for 
them?
    Mr. Walters. We agree with that concern, especially when we 
see what we have to treat. That's why, as I tried to briefly 
touch on in my statement, we are developing an early 
intervention campaign. It will be targeted on young people and 
on adults, parents and other adults, to both understand the 
signs of dependency, to understand what to do to refer people 
to support, and I think most importantly of all, frankly, in my 
view, to create a climate among young people and adults that 
will support getting people into recovery and support them in 
recovery.
    We know nobody gets safely treated by themselves. We need 
to have more willing hands and more understanding hands that 
will help understand that there is hope, that there are 
particular actions that can be done, that this is a disease. It 
is a disease that requires effective treatment. It's not enough 
just to say, well, get over it by yourself, and that there are 
specific things people can do to help to optimize the 
successful outcome for treatment. So we are specifically 
looking and developing now, hopefully it will be releasable at 
the end of this year, beginning of next year, a new part of the 
campaign that will be directly targeted to early intervention.
    Mr. Towns. Let me tell you one concern that pops up all the 
time, is that in terms of getting involved, in terms of valid 
initiatives, we have States that feel that based on the drug 
usage problem in the area that they have an idea that might be 
the best approach to it. And then you're coming in and saying, 
no, we're going to campaign against that and spend Government 
dollars. There is a real concern about that. I'd like to hear 
your comment on it, because, and that the other part, I might 
as well add, by being a little political, that you might come 
in 3 or 4 weeks before the election.
    Mr. Walters. I understand the concern. We made a decision 
last year to change the way we behave. When I was in this 
office during the President's father's administration, we did 
not spend much time discussing legalization. It was a minimal 
fringe effort, had been going on in some cases for years 
unsuccessfully. And we gave it more credibility by joining 
that, standing on a platform and debating than it had by 
itself.
    The difference, coming back this time is, the legalization 
movement has received substantial funding, has aggressively 
used the ballot initiative program, bringing in in most cases 
people from the outside, funded to collect ballot signatures, 
and then advertised with one-sided, outside advertising. I made 
the decision in part because I met with people who were running 
treatment centers, running prevention programs, working in 
public safety, saying that we get drowned out by one-sided 
campaigns that falsely frame the issue and we don't get a 
chance to be heard.
    I did not advertise in these States that I went into last 
fall. I went in and stood with people who really every day save 
lives, to give them a chance to be heard. I recognize this is 
unusual, I recognize the risk of having somebody from 
Washington or the White House come in. But I stood, and I stood 
probably with bi-partisan people, I stood with the Republican 
and Democratic gubernatorial candidates in Arizona who together 
said, this is bad for our State. We tried to get a fair hearing 
of the arguments on the other side, not a one-sided hearing 
that had happened because of one-sided funding.
    As a result, I believe, of hearing a fair discussion of the 
arguments, those propositions lost. It is my statutory 
responsibility to make clear why drug use is bad, why the law 
is fair on these issues and I think that's a part of that 
responsibility. But I think we're doing a good job with the 
tools I have. I'd like to be able to continue that now. But I 
don't believe I have to go any further than that, and I don't 
think it's a partisan matter.
    Mr. Towns. Mr. Chairman, I think my time has expired.
    [The prepared statement of Hon. Edolphus Towns follows:]
    [GRAPHIC] [TIFF OMITTED] T8015.141
    
    [GRAPHIC] [TIFF OMITTED] T8015.142
    
    [GRAPHIC] [TIFF OMITTED] T8015.143
    
    Chairman Tom Davis. Let me move to Mr. Ose.
    Mr. Ose. Thank you, Mr. Chairman.
    Before we leave this subject, Mr. Walters, I want to 
compliment you on the subject that you just discussed and your 
involvement in a non-partisan manner or a bipartisan manner in 
addressing this.
    I do have a statement I'd like to enter into the record, 
Mr. Chairman.
    Chairman Tom Davis. Without objection, so ordered.
    [The prepared statement of Hon. Doug Ose follows:]
    [GRAPHIC] [TIFF OMITTED] T8015.014
    
    [GRAPHIC] [TIFF OMITTED] T8015.015
    
    [GRAPHIC] [TIFF OMITTED] T8015.016
    
    [GRAPHIC] [TIFF OMITTED] T8015.017
    
    Mr. Ose. One of the things that I worked on when I came to 
Congress, in fact, the only committee I begged to be on was the 
drug policy subcommittee. And after wearing down Mr. Burton, he 
finally consented.
    Mr. Walters, we have in California a problem with 
methamphetamine. There are about 80 of us here in Congress in 
the methamphetamine caucus. We worked in the last appropriation 
cycle to obtain an additional $20 million for the HIDTAs to 
work on methamphetamine. I'm told that of that $20 million, 
only $1 million of it went to support HIDTA operations and the 
other $19 million got used elsewhere. I'm curious as to why.
    Mr. Walters. I'll have to look. That's not in my 
recollection, but my recollection is not perfect on this. What 
we did with the HIDTA program consistent with the direction 
that Congress gave us we've got obviously a variety of 
directions from Congress in both chambers. But I think the 
overall direction we got was, that this program makes a 
difference on the key threats of drugs in the country. As I 
said, have gone to most, not all yet of the 28 HIDTAs, and 
asked them to get on board with giving us proposals that shrink 
the drug problem in their area of jurisdiction.
    In those areas where there is meth, we have supported meth 
efforts. And where they presented credible programs to go after 
the major meth threat in those areas, we will continue to 
support them. What I've asked them not to do is to either not 
define a problem or not define a substantial result from the 
effort they're asking us to fund. We want to fund making a 
difference. And if they're not going to make a difference, I'm 
telling them to go back to the drawing board and create a plan 
that will.
    We understand, particularly at this time when we're making 
progress against cocaine, I believe, at historic rates, there's 
a great danger that progress could have particularly grave 
effects against the meth problem. Because if we reduce the 
availability of a stimulant dependent substance in one area, we 
could increase the demand for such a substance in another.
    I'll go back and look at what we did on the specific 
requests from your area. But generally speaking what we've 
asked them to do is focus on the major structures that are 
marketing this and break them down. We've had some resistance. 
I recognize that I'm asking for a change in the program. I 
don't think this is bad intentioned resistance. Everybody's 
working very hard here. What we're trying to do is get them to 
join together in a way that understands that these resources 
need to be focused on a better understanding of the threat and 
a way of taking it apart.
    Mr. Ose. As you consider the performance of the HIDTAs, the 
one I'm particularly interested in is the central valley of 
California HIDTA. Have you had any performance measurements to 
indicate that they are meeting, exceeding or not meeting the 
expectations that we have here in Washington?
    Mr. Walters. I haven't met with their executive committee. 
I'm now getting regular reports from my staff. I get briefed 
every 2 weeks on their conversations with the HIDTAs. They've 
had, as I understand it, some considerable success on some of 
the cases going after meth groups that are operating in their 
area and also marketing outside of the central valley into 
other parts of California.
    We are about to receive the proposals for the non-base 
money for additional resources this year. I'll be happy to make 
sure we keep you in the loop on that.
    Mr. Ose. The reason I bring it up is that this $20 million, 
the California members, of those 80 odd members that I cited 
earlier in the meth caucus, supported that $20 million add-on 
for the purpose of helping the central valley HIDTA with 
methamphetamine. And your testimony was that they are making 
progress. It seems to me that perhaps Washington ought to say, 
you guys are doing well, here's some more money, go get them.
    And I will tell you that in my short remaining time, I am 
going to continue to watch this, and I will be either your 
staunchest advocate or a pain in the neck. I'm interested in 
the central valley HIDTA being successful, as you are. I look 
forward to working with you.
    Mr. Walters. I never have a problem with people who are a 
pain in the neck because they want us to do better. I 
appreciate the help and I will visit the central valley in 
August, actually, to talk to them directly. Thank you.
    Chairman Tom Davis. Thank you very much. The gentleman's 
time has expired. Mr. Ruppersberger.
    Mr. Ruppersberger. First I want to thank you for your work. 
I think you've got a really difficult job, that you're pulling 
people together as a team and making a difference.
    I know in the bill that Congressman Elijah Cummings 
proposed a witness protection provision to protect 
neighborhoods and the safety. And it's a result of that 
unfortunate situation where a family was attempting to 
eradicate drugs in their neighborhoods, they were standing up 
to drug dealers on the streets and the house was fire-bombed 
and five children and husband and wife were killed. You and I 
both attended that funeral.
    Do you have any specificity or any plans for a situation 
where that would happen again, where you have individuals who 
have no place to go, they're trying to stand up to the drug 
dealers in the neighborhood, they're getting threats? And if we 
could act quickly before we get to a tragic situation like 
that, where are we with respect to that type of issue?
    Mr. Walters. We haven't prepared, let me be clear, we 
haven't prepared implementation of that language, because the 
language is now still pending. So we haven't done that. I have 
worked with Congressman Cummings in his district to both look 
at public safety issues and to look at community coalition 
resources here.
    We have relied in this partnership on local people taking 
the lead, and he's been a leader in that area in bringing 
people together. We've tried to help with my office in 
providing expertise, as well as I think clear notification of 
additional resources where they have been available. I am going 
to, in the coming months, go into more areas of the country 
with parts of my staff, bringing together people who are 
working on community coalitions, on public safety, on treatment 
and prevention, and the local officials, to try to create 
better consensus about what needs to be done and what the 
priorities are.
    We are bringing together, with their help, the available 
information we have from all Federal resources. We're going to 
measure everything from where treatment sites and drug courts 
are, from what the patterns of use are, to where open air drug 
markets are, to where they have particular threats to the best 
of our ability and then sit down with local leaders who have 
the strength, who have the institutional leadership here, and 
say, this is what you need to do to support them.
    It's not about us. It's about building on the strong 
foundations that exist in every community. I visit too many 
people who work in this area on various parts who are doing 
great work but feel they are too isolated, too alone, they 
can't get people to come together. We're going to try to be a 
convener to have communities recognize this, and where there's 
witness protection issues, where there's neighborhood security 
issues, where there's a matter of--we need more juvenile 
treatment facilities, we want to help create a process where we 
table those, look at Federal resources that can be brought, but 
also look at State and local resources.
    As you know, this is a time of a very competitive 
environment at the State and local budgets. And I don't expect 
us to trump everything. But I do think if we make a stronger 
case, we do a better job of supporting programs that deserve 
support.
    Mr. Ruppersberger. One suggestion that I have, you have 
witness protection programs for those individuals that are 
usually acting as informants or working with law enforcement. I 
think the reason Congressman Cummings put this amendment in the 
bill was that we want to try to analyze with the local law 
enforcement when there is a family that might be at risk 
because they are standing up. And we have to move quickly. It's 
kind of like an analogy to domestic violence, when you get an 
order to keep maybe a spouse or someone or a friend away from 
the other individual, it's done very quickly until another 
hearing is had.
    And I would hope that you would come up with a policy 
working with the State, Federal, local law enforcement to 
identify those individuals in those neighborhoods throughout 
the country that are attempting to stand up and yet their lives 
are at risk. It's unfortunate that we had this situation in 
Baltimore. But as a result of that, let's not forget about it, 
and let's move forward with a policy to make a difference.
    One other issue. I'm very much concerned about the 
resources being taken away from drug interdiction, drug 
enforcement, all the issues because of what is happening in 
terrorism. There's no question we have to deal with the issue 
of terrorism and homeland security. It's almost an exercise 
that is happening every day and we're learning, and we have to 
do what we have to do to protect our country from terrorism.
    But what concerns me, and from my conversations with people 
within law enforcement, is that a lot of the resources that are 
being put into fighting terrorism are being taken away from our 
drug offices, our drug investigations. Do you see that? And if 
it's the case, I think we have to make that some type of an 
issue, so hopefully this administration will refocus on first 
responders and giving the resources so that we don't walk away. 
Because if you look at the numbers and statistics, a lot more 
people are at risk and there's a lot more crime, especially 
violent crime, generated as a result of drug interdiction 
versus terrorism.
    Mr. Walters. I appreciate your point. What we have done, I 
think, is two things. One, we've had to make shifts. There's no 
question about that, because of the additional terror threat. 
We moved a number of FBI personnel out of drugs and into 
counter-terrorism because it was important for the protection 
of the country. I know people had disagreements about that.
    Mr. Ruppersberger. I don't think anybody disagrees with 
that priority.
    Mr. Walters. What we've done to compensate for that is this 
year and the next year in our request, we've asked for money to 
hire more DEA agents to backfill those positions in the DEA. In 
other areas, yes, we're still, I believe, fair to say in the 
shakeout process of deploying additional resources to State and 
local partners on various terror, drug task forces. I've been 
working with the Attorney General's office to focus both the 
HIDTA program and the OCDETF program. We are still, and I know 
Congress is extensively involved in this, although some of it 
is not involved in my office, in deploying money for other 
parts of homeland security.
    I would say, in the transit arrival zones, we have not had 
a substantial diminution of interdiction results. That's partly 
because we've had greater cooperation from Colombia and Mexico, 
where some of these have occurred. It's partly because we've 
had some strengthening at the border. We've been at level one 
on the border since after September 11th. It's partly because 
of the tools you gave us to increase our intelligence sharing 
and intelligence capacities.
    We continue to improve that. But the real key, I think, 
here, and what you're getting at, is to better work the 
relationship and the partnership between State and local law 
enforcement, which feels pulled many times in a way that they 
compensate and they don't feel they're compensating for, to 
focus these more generally. That's why we're trying to use the 
HIDTA program and the intelligence units that are in there. We 
are also linking the HIDTA program together.
    And my director of intelligence has just become the U.S. 
interdiction coordinator and narcotics advisor, cross 
designated to Secretary Ridge. We're going to try to bring both 
what we're doing in bringing some of the intelligence 
resources, we're trying to build on what we've had successfully 
happen in some of the HIDTAs as well as some of the new 
capacities that are there.
    I'm not denying it's going to take us a little bit of time. 
And people are working very hard and have been working very 
hard since September 11th. That's why we've had as good a 
result as we have.
    But I understand your point. We have taken some steps to 
change some priorities since the immediate attack to elevate 
the counter-narcotics intelligence collection and some of the 
deployments. Nobody I think argues when we have a particular 
time of threat, we're going to have to pull Coast Guard, border 
and other assets back to protect our cities, our ports, our 
territorial waters. We have then moved, fairly quickly I 
believe, to re-deploy them in regard to drug interdiction down 
closer to the threat. And we have had, as I say, greater 
cooperation now, particularly from Colombia, that's produced 
results.
    So in addition to the over 100 metric tons of cocaine that 
did not get produced because the plants were eradicated last 
year, we had another over 100 metric tons of cocaine that was 
seized that was headed for the United States. We are now taxing 
them through this process well over 30 percent of what they 
could make as a result of interdiction. And we've had reports, 
some that have been recently declassified, talking about the 
diminishment of profit in the drug, especially the cocaine 
business, over the last several years. This is our goal, to 
attack the market, to make it impossible for it to function at 
the level it's functioning now.
    Mr. Ruppersberger. Thank you.
    Chairman Tom Davis. The gentleman's time has expired. Thank 
you very much.
    Mr. Lewis.
    Mr. Lewis. Thank you, Mr. Chairman.
    Mr. Walters, thank you for the job that you do and thank 
you for being here today. In Kentucky, probably the biggest 
problem we have, and it's a growing problem, is of course 
methamphetamine. But there is another problem that seems to be 
growing, and it would be oxyacanthine. Are you addressing this 
in a specific way and how pervasive is this problem? I know 
it's a real problem in Kentucky.
    Mr. Walters. The problem has sprung up over the last year 
or two. It's been focused and some areas have been terribly 
hard hit. I know Kentucky is one of those areas. We have gone 
in with the authority of DEA and tried to look at it, because 
this is of course a controlled substance, the diversion of this 
substance through illicit channels. There are cases that have 
brought to justice some people who were diverting it from 
legitimate channels.
    There have been efforts to better educate physicians. I 
visited with some of them and we've been working with some of 
the licensure bodies. Many times the diversion is also 
contributed to, not from maliciousness on the part of 
physicians, but by failure to understand that the behavior of 
someone who is seeking to shop for doctors to get 
prescriptions. They're used to seeing people come in who have a 
serious illness who are frank and want to get well. So they 
take people at face value. We need to add some dimensions of 
education. And I think the medical community has been quite 
responsive. In fact, if anything, we've also seen some of them 
who are refusing to prescribe some of these, especially 
oxyacanthine, because of its diversion possibilities.
    We have the best medical institutions in the history of 
humankind. We can treat pain as never before, we can treat 
people for a variety of conditions that we've never been able 
to treat before. We want to make sure we maintain the medical 
efficacy at the same time we prevent the harm.
    So we basically have used enforcement and education. We 
want to broaden the education. I'm going to be meeting with the 
AMA later this year, in a couple months, to try to talk about 
institutionalizing more of these programs for physician 
education. I think that's just a reasonable, prudent and a 
desired educational component that will help protect more. But 
we're going to have to go in where there are people who are 
criminals, and we're going to have to find them and punish 
them. Hopefully we can do that before too many people die.
    Mr. Lewis. Absolutely. Thank you, sir.
    Chairman Tom Davis. Thank you very much. Our next speaker 
is Mr. Davis of Illinois. Not here? We'll go to Ms. Watson. 
You're on for 5 minutes.
    Ms. Watson. Thank you so much, Mr. Chairman, and thank you, 
Mr. Walters, for being here. I'm reading the bill itself. And I 
understand that as the bill is drafted, it contains a provision 
that would permit you and your office to use taxpayers' money 
to become involved in the political campaigns. Now, if you 
would, I don't know if you have the bill in front of you, but 
in looking at page 37, line 22, subsection 2, it says, the 
prohibition, in paragraph 1(c). Now, 1(c) says that there's a 
prohibition against using these funds for partisan political 
purposes. But starting on line 22, subsection 2, the 
prohibition in paragraph 1(c) does not apply in connection with 
the director's responsibilities under, and it names the 
sections.
    So I would like you to explain to us how you would avoid 
using these funds for partisan political purposes and how do 
you guarantee us that this provision will not be abused.
    Mr. Walters. Excuse me just 1 second.
    Chairman Tom Davis. If I may interject, Ms. Watson, for 
just a moment, if you'd yield for just a second.
    Ms. Watson. Please.
    Chairman Tom Davis. I think we've reached an agreement with 
the minority to clarify and remedy this provision. But you've 
accurately highlighted an issue. I'll let Commissioner Walters 
respond.
    Ms. Watson. Can you tell us what the compromise is?
    Mr. Walters. I apologize for not being fully conversant on 
this point. There was a provision, I believe, this is the 
provision you read to me, that would seek to make the 
restrictions on the Presidential appointment, appointed 
managers in my office, subject to the same rules as all other 
Presidential appointed managers in the Federal Government. I 
think that's the provision you're referring to. That was to 
conform to the standard that's been set throughout the rest of 
the Government.
    Maybe it's my own view of not being much of a political 
asset, but I don't have great desires to campaign. I came back 
into this job to make a difference on drugs. I've stood with 
Democrats and Republicans. I think some of the Members here 
today know that. This was a desire simply not to have the 
office treated differently, I think, than other PAS staffed 
offices. But if the provision is changing, then I'll have to 
respond to the change, I guess, at some point.
    But again, our original request here was simply to change 
the existing authorization that treated the PASs in this office 
differently.
    Ms. Watson. Well, I would feel more comfortable, Mr. 
Chairman, directed to you, if we could delete lines 22 on page 
37 to lines 38 on page, excuse me, to page 38 line 5. That 
would just be silent on that particular provision.
    Mr. Waxman. Will the gentlelady yield to me?
    Ms. Watson. Pleased to. This is directed to you, Mr. Chair. 
Oh, I'm sorry, ranking member.
    Mr. Waxman. Thank you. I certainly strongly support the 
idea that this head of the office should not be out 
campaigning, certainly not for partisan purposes and not to get 
involved in other campaigns, political campaigns, as well. 
We're trying to work out a legislation on this. So rather than 
talk about specific language, I would hope that everyone would 
agree that we don't want the head of the drug office to be 
involved in politics.
    Ms. Watson. If I can just suggest, maybe we can just delete 
those lines and that would take care of it.
    Mr. Waxman. Well, that's one way to do it, but let's 
explore the language further.
    Ms. Watson. Well, I would like that very much.
    If I still have time, Mr. Chairman, and I'll continue.
    Chairman Tom Davis. Sure.
    Ms. Watson. Thank you for your cooperation on that issue.
    There have been a number of questions raised about the 
effectiveness of the anti-drug media campaign, and I understand 
that a study is underway to assess the strength and the 
weakness of the campaign. So what efforts are underway in your 
office at this time to improve the campaign's effectiveness?
    Mr. Walters. I touched on some of them in my testimony. We 
are focusing it to the slightly older part of the teenage age 
group. We're making the ads more powerful. We're testing them 
to see if they are powerful and effective before they go on the 
air. We have also added a focus on marijuana because of the 
ignorance, I think, about the danger and the scope of the 
marijuana problem among young people.
    We have continued other parts of the campaign that will 
focus on bringing parents in as well. The evaluation, that 
first part of which I referred to that was released to the 
committee today we just got, which was part of the urgent 
review done at the request of Congress to show are the changes 
we're making are making a difference. We will continue with 
those evaluations and provide subsequent reports and the 
overall evaluation of the program that a next stage of which is 
due in the fall.
    Mr. Souder [assuming Chair]. The gentlelady's----
    Ms. Watson. If I'm out of time----
    Mr. Souder. Yes, the gentlelady is out of time.
    Ms. Watson. OK. Look at California's anti-tobacco ads.
    Mr. Walters. OK, thanks.
    Mr. Souder. Mr. Deal, any questions?
    Mr. Deal. No, thank you, Mr. Chairman.
    Mr. Souder. Mrs. Miller.
    Mrs. Miller. Thank you, Mr. Chairman.
    Mr. Walters, I've been listening to you this morning with a 
great amount of interest as you've talked about marijuana use 
and just talking now about the advertising, the media campaign 
with marijuana use. I come from Michigan, a border State, of 
course, to Canada. Several things there. We have a municipality 
in Michigan, for instance, that actually hosts the University 
of Michigan, where the local city council has passed an 
ordinance, it's a $5 fine for marijuana possession.
    And now you see Canada is relaxing their standards rather 
significantly in regards to marijuana use. Of course, in this 
area, we've got two of the largest, the busiest border 
crossings actually on the northern tier of the Ambassador 
Bridge in Detroit, the busiest border crossing, and then the 
Bluewater Bridge, which is in my district, as well as the third 
largest, busiest commercial artery along that tier. We've done 
well, we think, with stepping up patrols, both from the Coast 
Guard, homeland security is helping out as we try to do 
interdiction and these kinds of things at the border crossing.
    Can you comment? We have a lot of consternation about what 
is happening with our neighbors to the north, with the 
Canadians, as they seem to be taking a different path on 
marijuana use and that kind of thing. I know I've talked to our 
State drug czar as well, and they're sort of tearing their hair 
out at this. Can you comment at what a State like Michigan, 
what we should be doing and how we could work better with your 
office as well?
    Mr. Walters. Yes, I can. I've been troubled by what's 
happening in Canada, too. It's the obvious irony of we have had 
remarkable improvements in cooperation in Colombia and Mexico 
and a serious problem develop, as indicated by the President's 
letter, and part of the congressionally mandated certification 
process, noting that Canada and the Netherlands have become 
significant drug suppliers or precursor chemical suppliers to 
the United States, expressing concern.
    I have over the last year and as recently as yesterday been 
meeting with Canadian officials, talking with folks in Canada 
to try to express what our position is. The concern we have, I 
also grew up in Michigan, I also have family and friends in 
Canada, as many people in the United States do, particularly in 
the area where we come from. We're concerned about what happens 
to Canadians, but that's not my business as a Government 
official. My business is the drugs they're shipping to the 
United States. And they have produced a particularly high 
potency version of marijuana. Chairman Souder visited Vancouver 
with me and talked to Canadian officials. They have routinely 
said the movement of this product, run by gangs, ethnic and 
criminal motorcycle gangs, has moved aggressively, it's a 
multi-billion dollar industry, and they have moved aggressively 
from British Columbia across Canada, Manitoba, Ontario and 
Quebec, and that substantial portions of this are being grown 
for the purpose of shipping it to the United States.
    By magnitude, the THC content, the psychoactive ingredient 
in marijuana in the 1980's, was about 1 percent. The THC 
content on the street today in the United States is 9 to 14 
percent. The THC content of this high potency marijuana is 20 
to 30 percent. It's much more powerful and that's why it's 
being grown the way it is, and people are moving into Canada to 
do this because the penalties are not serious. I've made clear 
to Canadian officials, we don't want to have a problem at the 
border greater than it already is. We have greater backups in 
Mexico, not because we dislike Mexico, but because we have a 
threat, and drugs are a big part of that threat. You need to 
get a handle on this production problem, since the bulk of it 
is headed to the United States.
    On law enforcement side we've had fantastic, magnificent 
cooperation. We have some problems with, I think, the decisions 
about policy that are our business, because we're the ones who 
are going to be victimized by a part of this.
    I would welcome help by Congress in doing oversight 
hearings that involve discussions of the policy that's going to 
be tabled and discussed in Canada. Because I think it will help 
to clarify what is a legitimate concern from what is I think 
sometimes presented as, well, we don't like it because they're 
not doing what they're doing. They have a right to have their 
own domestic policy. They're a sovereign country. Nobody argues 
about that except people who want to suggest that we don't have 
a stand here.
    What we have to care about, are these drugs, that is the 
single largest cause of treatment needed in the United States, 
is being now produced at remarkable potency levels in Canada 
and shipped largely to the United States. That's a U.S. 
problem. We have to protect our citizens.
    Mrs. Miller. I appreciate that. I'd like a little bit of 
information if you could send it along to my office, actually 
next week during the break I'll be meeting with my counterpart 
across the border there. We have about an hour agenda of a 
number of different things. This is one of the items that I 
have wanted to discus with him. I think perhaps if some of the 
border States' members could talk to their counterparts as well 
in Canada, and maybe sort of the bottom up of how frustrated we 
are with their policy, and what kind of impact it is having on 
our Nation. So I would appreciate that.
    Mr. Walters. Absolutely. It would be very important, 
particularly at this time.
    Mrs. Miller. Thank you.
    Mr. Souder. Congresswoman Miller, if you could wait just a 
second, I wanted to tell Congresswoman Miller that we just had 
the U.S.-Canada parliamentary last weekend. And in addition to 
the northern border caucus, we're going to have an ongoing 
relationship like you talked about, and we'll make sure that we 
get you involved in that.
    Congresswoman Maloney.
    Mrs. Maloney. Thank you very much for your testimony and 
all your hard work.
    A number of groups are circulating concerns about the 
administration using taxpayer money for issue ads. And one 
concern is, who will approve the ads and make sure that they 
aren't used for partisan purposes or whatever? What is the 
approval process for ads that would be aired?
    Mr. Walters. Let me make clear now, we do not air issue ads 
at this time. The efforts that I made last fall were for myself 
to travel and stand with people in States that are facing 
ballot initiatives to make the arguments that they made about 
why this was bad for their State. I know that many in Congress 
are concerned that the efforts we're making to reduce drug use 
and reduce the drug problem are undermined by efforts to 
suggest that, well, we ought to just give up and legalize it. 
And I share that concern, that's why I acted the way I did.
    But so far, we have been very effective using what I think 
is my current authority to speak and to stand with people in 
communities. So----
    Mrs. Maloney. So the approval process is basically your 
decision of what the ad content is?
    Mr. Walters. Right now, the ad content, which doesn't 
include this dimension, and hasn't, is to look at the current 
state of the drug problem among youth, because it is a youth 
anti-drug media campaign. And to give direction, we briefed 
Hill staff about what directions obviously we're going. And 
there is a review process for effectiveness and efficacy that's 
done by outside groups as well as managers of the program. And 
then the ads are tested for power and effectiveness.
    But right now, yes, I am the final, everything that goes on 
the air is my responsibility. I want to be clear about that.
    Mrs. Maloney. Who is funding these ads to legalize drugs? 
You testified earlier that a great deal of money is going into 
ballot initiatives, etc. Who's funding it?
    Mr. Walters. The largest funders that have been identified 
in the press, and I don't think that's inaccurate, have been 
three individuals, George Saros, John Sperling and Peter Lewis. 
There are other funders, smaller funders, but they are 
relatively modest contributors to most of these campaigns. I 
have asked and I continue to ask repeatedly to meet with them. 
I think that those resources, I'd like a chance face to face to 
say, can we put these resources in a place that will help more 
people. And I think it's a little bit counter-productive to 
have this battle back and forth.
    I also think that, I understand that people have 
differences and disagreements. And they may continue to have 
disagreements. But I'd like a chance to have a face to face to 
try to make a case that we could save lives. We don't have to 
give up.
    Mrs. Maloney. These reports that come out periodically, 
that marijuana can be used medically, is helpful medically in 
certain situations. Some doctors have said that. What is your 
opinion? Does your research show it's not helpful?
    Mr. Walters. There is now available by prescription a 
marijuana medicine, Marinol. It's used for some conditions of 
nausea and others. It has been demonstrated effective by the 
same procedures we use for modern medicine, which is we use a 
series of protocols to show that things have medical efficacy. 
The Federal Government funds, I believe over $30 million this 
year, in research to test other parts of marijuana that may be 
efficacious. And we continue to look at it.
    As I said earlier, we have the finest medical institutions 
in the history of humankind. They're based on science, they're 
based on efficacy and the problem here has been to say simply 
that because a drug makes people feel better, or because a 
substance makes them feel better it's a drug, that's not 
scientific.
    Mrs. Maloney. But Mr. Director, I think the concern that 
has been expressed to my office, we have paid for advertising 
for Governmental purpose. For example, the census, to encourage 
people to participate and fill out their census forms, we had 
an advertising goal. But it was a goal that everybody in 
America agreed on.
    In this particular case, there is a division of agreement, 
and there's concern that it might go to other places where the 
dominant view may then swamp the minority view. And I'll give 
you one example. I believe very strongly in a woman's right to 
choose. That's my personal belief. Many of my colleagues do 
not. So what is going to protect us from having, say, in the 
future, an ad campaign against a woman's right to choose paid 
for by the Government, because there is a division of 
agreement?
    Personally, I agree with you. I don't believe we should 
legalize drugs. I don't think that should happen in our 
country. I'm opposed to it. But the concern for many people, 
whether they agree with you or disagree with you, is they see 
this as a step that might go into a direction of Government 
interference in a public debate, basically. And we have paid 
for advertising in the past, but it's always been not a 
debatable issue. It was sort of a goal that everybody agreed 
on.
    On this issue, it's a debatable issue. I happen to agree 
with your point of view. But many, some of my colleagues and 
some of my constituents disagree. And they're concerned that 
this is a silencing of--you understand what I'm saying.
    Mr. Souder. The gentlelady's time has expired. If the 
Director would like to briefly respond.
    Mr. Walter. Let me just say to be clear, we have not used 
the advertising campaign in this manner. We have used it for 
what everybody agrees is appropriate, and that's why the 
campaign exists. Drug use is particularly bad for kids. The 
drug problem starts with kids. It's a pediatric, drug addiction 
is a pediatric onset disease, we need to be thorough-going and 
clear about that.
    We have used this to alert young people, parents and adults 
to the dangers and how to protect kids. The ballot issue 
initiative is something I have gone in and stood with people 
who worked the front lines and I think got a hearing.
    I understand the concern about how much do you want to 
again, and again, this provision is something that the 
committee is going to have to decide on. I haven't used that 
tool in that way. And you'll have to decide what the lines are 
here. But I feel that over the last year I've shown that by 
giving people a fair hearing in the way we've done it, we win, 
that there is a giant consensus about this is a bad idea to 
give up on.
    So I feel I have a record of showing how we can do this, 
and to get the job done I think everybody wants done.
    Mr. Souder. I think it's important to repeat what Mr. 
Waxman said a few minutes ago, is that we are working together 
to try to come up with language because we have a mutually 
agreed-upon goal, and that will require a little bit more 
refinement from the current law. We do not believe it should be 
used for partisan political purposes. We do not believe it 
should be used for any, affecting any referendum that's 
pending. And we have to come up with a definition that doesn't 
just in general prohibit anti-marijuana advertising from ever 
going anywhere that wasn't, in other words, you could 
conceivably interpret that any anti-drug advertising is trying 
to influence a referendum.
    So we have to protect the integrity of the ad campaign but 
we're definitely working to try to keep it out from any 
specific referendum, any specific candidate, and we'll continue 
to work on that language.
    Mrs. Maloney. Would the gentleman yield?
    Mr. Souder. Yes.
    Mrs. Maloney. I think you hit the core when you say protect 
the integrity of the ad campaign. Personally I think you have 
to develop some form that you do this in. In the sense of the 
census we had a commission that was appointed by Democrats and 
Republicans that looked at the final product and said hey, this 
is good.
    But to make sure that this is not used politically, and 
understand, although he's doing a wonderful job, if you instill 
this power into just one person, which according to his 
testimony he said he has the final decision on whether it's 
appropriate or not, I'm just saying that maybe there should be 
some review panel that's bipartisan that makes sure it's 
appropriate. Thank you.
    Mr. Souder. I thank the gentlelady.
    Mr. Murphy.
    Mr. Murphy. Thank you, Mr. Chairman, and thank you, Mr. 
Walters for your testimony.
    I wanted to shift gears if I could a little bit into 
another area here. Although you were just beginning to talk 
about how this is a pediatric problem, and as you know, my 
field has been working with children all my life. One of the 
areas that I want to know about is what we're doing to engage 
parents in this process. It is good to stop cocaine in 
Colombia. It is good to stop drugs at our borders. But really 
enlisting every parent in America as part of your team, as part 
of our mutual team to stop it is of concern.
    And let me bring up a couple instances which concern me 
most. That begins with alcohol. Alcohol is the most commonly 
used and abused drug, one that's legal, one that many people 
suffer with, with alcoholism, and of course, begins in youth. 
And as a gateway drug, children who start with alcohol 
oftentimes move on to other things. It's of particular concern 
when parents' attitudes, habits and behaviors almost promotes 
this, directly or indirectly.
    In particular, let me describe to you a scenario which I'm 
sure you have heard all too many times. That is when parents 
believe that children will get involved with drinking anyway, 
at parties, on prom night, gatherings with friends. And they 
have what I can call at best a sick interpretation of youth 
behavior, and they believe if they purchase the beer, if they 
have the kegs, if they have the alcohol there, and they do 
something as almost as childish as taking the students' car 
keys away and letting them drink at their home, they think 
they're doing the kids a favor. Because they think otherwise 
the kids will sneak off into the woods and drink, and so 
they're going to help them by almost advocating the use there.
    And what I see happens is that other children then think 
that here's an adult almost encouraging them to drink, so 
perhaps they should do it, too. And it removes perhaps that 
last best wall we have, and that's parents telling kids, you 
don't have to drink to enjoy yourselves. It is not an 
expectation of youth and adolescence. I would like to know what 
kind of plans you see in your near future to help engage 
parents more in this kind of activity to help stop that parent 
behavior.
    Mr. Walters. Yes, thank you. It's very important. And this 
is one area where the media campaign efforts, and there's about 
half of the campaign that has been focused on parents that has 
been working, based on the evaluation we've had. We've had 
parents better understand their role and responsibility, better 
understand they need to talk about substance abuse generally 
with their children. And also better understand they need to 
supervise their children and to provide information to them 
initially with the ad, but also to give them a referral to 
other sources of information that we provide and others provide 
that can give them concrete steps they can take in supervision 
and if they don't know how to talk with their kids, with 
experts like yourself giving advice of how to approach this 
topic more effectively in different situations.
    In addition, we provide through, as you probably know, the 
media campaign is unique in that it gets a one for one match of 
every buy it makes of media. We have used a portion of the 
match to allow ads done by Mothers Against Drunk Driving and 
other anti-alcohol programs that are part, then funded by of 
course the campaign's efforts.
    We also have sought to fund, as my office is responsible 
for, the Community Anti-Drug Coalitions program that helps to 
support members of communities coming together to focus on this 
problem more effectively. Almost all of those community 
coalitions, and there are hundreds now around the country, have 
focused substantial resources for the reasons that you 
mentioned on alcohol as well as illegal drugs, because of the 
danger, because of, basically because of the ignorance and 
because, I think most important of all, because as we spoke 
earlier, the protection of children is only as strong as the 
weakest link in the contact children are going to make during 
the day. So if a parent does the wrong thing and doesn't 
supervise or doesn't pay attention and your child is there, 
they're likely to be more at risk than they would have been in 
all the other things that you took care about.
    So we're trying to approach this on several fronts where we 
think we have effective leverage to improve what we say, what 
we teach, what we do in supervising kids.
    Mr. Murphy. I appreciate that and hope we can continue to 
work hard. I know one of the things, and I don't know if this 
is factual or not, but for the issue of those students up in 
Chicago who were involved with harassing some other girls after 
some football game, there were some allegations that parents 
had bought the beer. I think it's important for the media to 
tell more stories about this, when parents have stood by while 
youth drank or while they purchased alcohol, and understand 
that they are just as responsible if someone does get behind 
the wheel, causes an accident, the blood is on their hands, 
too.
    I really hope we can stop this insidious behavior among 
parents in America who somehow have got this perverted idea 
that it's good to do that. When parents teach the children that 
it is not right and you can't drink until you're 21, it's an 
important message. Yes, sometimes youth will still sneak out 
and do some things. But it's still our job as moms and dads to 
be there to guide and set a good standard and to say no.
    Thank you, Mr. Chairman.
    Mr. Souder. Mr. Davis.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman.
    Mr. Walters, let me first of all compliment you on the way 
in which I've observed you criss-crossing the country, going 
out in neighborhoods and communities and actually looking at 
what is working, what people are trying, what they are 
attempting to do. Coming from an area like I do, the 
metropolitan area of Chicago and Cook County, I have a great 
deal of interest in the High Intensity Drug Trafficking Plan. 
Could you embellish that a bit in terms of what we're planning 
to do with those areas?
    Mr. Walters. Yes. We're trying to use some of the longer 
established areas to do a better job of defining the problem. 
Let me put it a little more straightforwardly. We want to do 
more of applying what we've learned in the battle against 
terror in the drug area. This has been talked about a lot but 
it's not been done. That is, we have to identify the 
organizations and the weaknesses that they exploit to be able 
to market. We're going to provide money for treatment, we are 
going to continue to provide money for community coalitions. We 
also need to provide money to go after these marketing 
organizations.
    So we're working in this program with State and local as 
well as Federal law enforcement. Chicago I believe has been an 
area frankly that has been under-served here. It's 
unfortunately had an explosion of drug use in some sections, 
and it has become a more important distribution point for that 
region; indeed, other parts of the country.
    So we are working now with the law enforcement members of 
that particular HIDTA as well as with OCDETF program, and 
trying to use a better picture of the intelligence that is 
there and also how to both operate for regional distribution 
and to operate on the markets that exist in that area. Some of 
that has involved monetary investigations to a greater extent, 
some of it has involved better cooperation with the southwest 
border, where heroin has been imported and moved into Chicago 
as well as cocaine. Some of it has involved trying to focus on 
how to better coordinate individual task forces that go after 
higher and then some of the connections to retail markets.
    But what we're trying to get is not just a situation which 
we have in too many cases of people, we're doing important 
things but how do those make any difference. I talk about this 
as numerators without denominators. I can't tell whether we're 
10 percent in the game or we're 60 percent in the game. We've 
asked them, I know it's hard, it's a covert activity, but I 
think the frustration everybody has is that we end up having a 
battleground in too many of our cities, fighting over the same 
ground and having communities destroyed. We want to make the 
problem smaller systemically and bring resources together.
    Mr. Davis of Illinois. We also have a great deal of concern 
about the individuals who are incarcerated. You know, we have a 
prison explosion in our country with over 2 million people 
currently in jails and prisons and more than a half million 
coming home every year. Many of these come as a result of drug 
related activity. And then of course they get back into the 
business because there isn't much else that they view 
themselves as being able to do.
    How do we see the connection in terms of reduction of use 
as well as reduction of distribution if we somehow can steer 
these individuals into other directions, making use of our 
policies and programs?
    Mr. Walters. I think that's very important. We visited a 
site together in your district trying to help reintegrate 
people from the criminal justice system into the community with 
treatment and other support. We're not going to substantially 
reduce demand if we don't reduce dependent use. We have to do 
prevention, we have to do intervention. But the largest volume 
consumers are dependent users. So if we're going to be true to 
what I think is necessary, a balanced effort, we have to reduce 
the dependent use.
    What that means is we have to get better treatment, we have 
to get it into the criminal justice system more effectively. 
We're trying to expand drug court programs, we're trying to 
expand in the treatment proposal the President has made for the 
additional $200 million, that would allow vouchers to be used 
for programs that would include at the basis of the discretion 
of the State and local authorities post-incarceration treatment 
and support services.
    It would include support for drug courts, it would improve 
support for outreach in communities for juveniles who many 
times are not adequately served. Essentially it allows us the 
greatest possible flexibility to bring providers like the 
provider we visited to add capacity or to spin offsites or to 
add satellite sites in other community institutions that will 
make a difference here. And it allows us to measure for 
quality.
    We agree with you that we have to do a better job on those 
people who are now dependent, who too frequently because of 
that dependency are also in the criminal justice system. I 
think the drug court movement has been universally welcomed 
because it sorts out those who are suffering from a disease 
from those who are simply dangerous victimizers and 
incapacitates the latter, but gets help, effective help in many 
cases, for the former. We want to expand that.
    Mr. Davis of Illinois. I think you've laid out some sound 
policies and directions, so I thank you very much. And I thank 
you, Mr. Chairman. I yield back.
    Chairman Tom Davis [resuming Chair]. Thank you. The 
chairman of the subcommittee, Mr. Souder.
    Mr. Souder. Thank you. I just wanted to make a couple of 
brief comments. First, I wanted to thank Director Walters for 
his leadership. At times we may have small disagreements, but I 
think you've done a terrific job, both at the international 
area and in the national arena. I think few people realize the 
complexity and diversity of challenges you face every day and 
your office faces every day. We appreciate your leadership very 
much. The President has given very specific goals for 
reduction. You brought concise order and strategy to the office 
to try to reach those kinds of goals.
    At times that means there is frustrations in 
implementation. At times people didn't want direction. But in 
fact, if you're going to achieve goals that has to be done. 
We've been working with you and your office on this bill as 
well as other groups, and the subcommittee to now bring it to 
the full committee. Nobody is particularly happy with 
everything, but I believe that net, we're moving the ball 
forward as we move toward conference.
    I am very appreciative of the leadership of Elijah 
Cummings, the ranking member, Danny Davis from Chicago, 
Congressman Bell, Congressman Ruppersberger and many of the 
minority. As we move forward, we've been working with the 
minority as well as Members of the majority on some changes. I 
believe that we can work most of these out, that will actually 
in the end strengthen the bill and make sure that we stay 
unified. We may have some things where we can't reach 
agreement. And we have some votes, but we're doing the best we 
can to work with your office, with the minority and with the 
majority with diverse concerns as we move forward.
    We have some additional data that we'll need over the next 
few days and look forward to talking with you about that, so we 
can make sure that what we have in this bill is something that 
at least the overwhelming majority of Congress can live with, 
the majority of the American people can be united to try to 
squash the scourge of drugs and to fight with a united front 
and not get too distracted in whether it's partisan political 
campaigns or what's happening over in this State or that State, 
but to try to say, look, we have key problem areas on the 
borders, we have key problem areas in certain major 
metropolitan areas, we have key international problems, we need 
to have a focused, clear-cut, national ad strategy with proven, 
tested ads that try to battle back a lot of the societal 
trends.
    Once again, I thank you for your leadership. The 
legislative process is messy. We're continuing to work through 
it. But at the end of the day, I think we can have a unified 
and broadly supported drug strategy.
    Mr. Walters. Thank you. Can I just make one comment? You 
weren't here and I want to say this, because I worked in 
Government for a long time, going back to the Reagan 
administration. And I've worked with a lot of committees, under 
the leadership of both parties. I have never had a better 
working relationship than with you and Mr. Cummings. You have 
both traveled, you have been supportive, you have been willing 
to stand up. You know because you've been there that the 
executive branch is also kind of messy, where we have better 
ways of covering it up sometimes so you can see hopefully more 
of the results and not the process that sometimes people have 
to hammer out disagreements.
    We try to be fair. You've been fair to me. You've been more 
extensive than any subcommittee I've ever worked with in the 
reauthorization process, covering all the major programs that 
we're responsible for thoroughly and carefully. And most of 
all, you've been helpful in your advice and counsel. And we are 
doing a better job because of what you've done and I want to 
publicly thank you. We're very close.
    I appreciate the speed with which you've done this. I know 
there was an issue raised earlier. But we want to have the 
office on a fair and sound ground. We want to have it 
authorized so we can continue. We want to make sure that we're 
focusing on fighting the problem and not worrying that the 
arrangement of the structures and authorities are going to be 
up in the air and that causes a lot of confusion for people out 
there, especially when you kind of squeeze the process and make 
people perform, they think that they can wiggle out of 
legitimate constraint because they can hope it will go away. It 
makes our job more difficult.
    But I want to publicly thank you especially, and Mr. 
Cummings, as well as Mr. Waxman and Mr. Davis for their help in 
putting this together. It's very important to what we do. And 
as you know, my concern, and I know you share it is, we've got 
to follow through. We've got trends now going in the right 
direction. We've got to drive this down to the point where we 
can see that the American people get what they want, which is a 
country that doesn't suffer the way we suffer today.
    Mr. Souder. In yielding back to the chairman, I want to 
thank him for his direct involvement from the time he took over 
this committee in going down to Colombia and being active in 
the minutiae as we move this bill forward, giving us the 
ability to be flexible in subcommittee and at the same time 
take the chairman's prerogative of when we needed to 
compromise, when we needed to work together. I want to thank 
him for his leadership.
    Chairman Tom Davis. Mr. Souder, thank you very much. But 
our thanks is to you. You've devoted a substantial part of your 
career here working these issues. It will bear fruit again in 
the reauthorization.
    I now yield to Mr. Waxman, 5 minutes.
    Mr. Waxman. Thank you, Mr. Chairman.
    I want to commend the work done by my colleagues, 
particularly Mr. Cummings, in trying to figure out how best to 
deal with this legislation so that we can have an effective 
ONDCP. One of the key issues in controversy is, the bill 
requires ONDCP to devote 80 percent of appropriated program 
funds to purchase time and space for advertising. I understand 
that an 80 percent media buy requirement could require 
proportional scaling back of important aspects of the campaign. 
Could you give us your views on that issue?
    Mr. Walters. Yes. I've asked that we preserve as much 
flexibility of our mix here as we can. I understand the concern 
that people have that we need to put power behind the ads. 
We've done that. We've tried to focus more resources on ads 
that are effective and ads that are focused. We've taken more 
of the match and devoted it this year and last year to our 
central campaign.
    The concern I have, and I know reasonable people differ 
about this, is that especially as we look to some of the ads we 
want to do on intervention, we need to refer people to some 
additional information. We need to have some kinds of abilities 
to market the message so it has resonance as modern media 
campaigns do. We're at 75 percent now, or 74 point some percent 
now. So I'm not talking about flexibility for the purpose of 
evading the central concern of putting ads on the air that you 
have to do to get the job done. The question is the mix of 
other things that might be supportive here.
    If it's within the judgment of the committee, and I 
recognize, I certainly respect that you're going to make this 
judgment, to allow us this flexibility, I'd like to have it, 
because I think there are times when we may want to, especially 
with some of the things we're talking about, to get after youth 
dependency, we may need some of that flexibility. But I also 
want to be clear that in asking for that, I am not in any way 
trying to evade the central point, which is I inherited a 
program where some, especially appropriators, were concerned 
that we had spent $1 billion and drug use was not going down. 
They warned me this was a powerful tool, but we're going to 
have to take it away because of the competition and the concern 
about the campaign.
    I took responsibility and said, give me a chance to try to 
fix it. And if I can't fix it, then you can take it away, 
because we shouldn't waste money, we have a lot of other needs 
here. I've made an effort to do that, I'd just like to keep the 
tools that allow me to keep doing that and you will obviously 
be the judges of whether or not that's successful now and in 
the future. I appreciate that, I appreciate the responsibility 
and I welcome the accountability. I'm trying to transfer it to 
other places. But I need to have some authority and 
flexibility, I think, to fairly carry out that accountability.
    Mr. Waxman. There's a 3 percent cap on non-advertising 
components of the campaign. And I'm interested in your views on 
that, whether you think that would limit the reach of the 
campaign's anti-drug message, particularly with respect to 
segments of the population not reached through general 
advertising.
    Mr. Walters. Yes, I am concerned, we now spend a little 
over 5 percent, I think, in this category. We would like to 
maintain some, again, some flexibility here, for all the 
reasons I indicated before. I understand we have to focus. The 
campaign is a sophisticated, modern campaign. We have developed 
materials to reach out to special populations because we know 
one size doesn't fit all. We have tried to use the best 
knowledge.
    Can we make improvements? Yes. But this is not a cookie 
cutter, crude operation at this point. It's sophisticated. The 
question was, can we make it work. The report I cited today and 
I think the overall trends show we are beginning to make it 
work. I'd like to have some flexibility to include some of 
these things. I know we've been criticized in the past, some 
people thought they were frills and things expended on that 
were beside the point.
    We should not be doing that. And if we're doing that, we 
should stop doing it. What I'd like to do, though, is have the 
ability to do things that are not frills, that are focused, 
that go beyond that, provide a modern marketing and provide 
referral, provide support for the messages that not only then 
do people see messages as young people, but they see them more 
powerfully because there are some residents out in the rest of 
the society.
    This is certainly not different from many other Government 
sponsored campaigns. The census was brought up earlier. It and 
other Government sponsored campaigns for health and other 
public good purposes also have a mix and that mix has to be 
based on who you're trying to reach and how best to reach them.
    Mr. Waxman. One of my colleagues, Ms. Watson, referred to 
the fact that we've had some success in anti-tobacco 
advertisements in California. It isn't just due to the 
advertisements, it's the use of free media, it's other 
expenditures. I think one of the best ways to change public 
attitudes is through reports, hearings, press conferences that 
generate the free news coverage. This bill would include your 
activities to provide information to the public and the media 
within that 3 percent cap?
    Mr. Walters. Yes, it would. And we'd like to maintain, as I 
say, the flexibility to do some of the things that you 
enunciated that we think are not peripheral, are not a 
diversion, but are central to improving the impact of the 
campaign.
    Mr. Waxman. Thank you. Thank you, Mr. Chairman.
    Chairman Tom Davis. Mr. Cummings.
    Mr. Cummings. Mr. Walters, I want to thank you for your 
comments and for your hard work. And I also want to appreciate 
the support of the chairman of our subcommittee with regard to 
the legislation. We still do have some problems to work out. We 
will work them out.
    And also I'm very appreciative with regard to the Dawson 
language. I want to talk about that for a little bit. One of 
the things that, as you know, and I was glad Mr. Ruppersberger 
mentioned it earlier, we have many areas in our country where 
neighborhoods sadly have been taken over by drug dealers. As a 
matter of fact, I can think of, we have five Hope Six projects 
in Baltimore, all of them had at one time, when they were high-
rises, had been taken over by drug dealers. I mean literally, 
it was a drug dealers' place where residents were afraid to 
even get on an elevator. Hope Six has for all intents and 
purposes been eliminated with the President's budget.
    Then we look at our States. And we see, we have situations 
where States now, you go down the list, because they are 
experiencing deficits, they are now cutting back on drug funds 
for treatment and almost anything to do with drugs, they're 
cutting back. And I think that's kind of a logical thing to 
happen, because maybe they figure, well, here's something we 
can cut back on, and they may not have the strong advocates for 
these funds, lobbying or whatever.
    It just seems like we've got a combination here where, 
first of all, if States start cutting back, the question 
becomes how does the Federal Government step in, and if we do 
step in, how do we step in to be most effective. Because that's 
real. When you're taking money away from drug treatment in 
Baltimore, which has happened, I think we cut $5.6 million in 
our State budget, because we've got problems. We just don't 
have the money, like other States.
    That means that a lot of treatment slots are not going to 
be filled. There are a lot of problems. So I'm just trying to 
figure out, when you take that into consideration, and then 
with the Dawson situation, we still have this problem where 
you've got these drug dealers who will threaten and kill. I 
think about every 2 or 3 months there's some story in the 
Baltimore Sun about some trial not going forward because some 
drug dealer allegedly has harmed or killed a potential witness. 
Of course, the thing that we see even more so than that is the 
long list of unsolved crimes related to drugs because of the 
fear.
    And while I do appreciate Dawson and I think the 
provisions, I just think some kind of way we have got to work 
even harder to protect every regular, every day citizens, who 
are like the Dawson family, who are simply trying to eke out a 
decent life and get these drug salespersons, I call them 
salespersons of death, off their corners, so they can live a 
decent life. I'm just trying to figure out, where are we 
generally with that? Are you working with the U.S. attorneys 
offices and whatever, FBI and DEA on that? Because this is a 
very important issue.
    And the other question goes to the whole State budget 
situation, with all the cutbacks, then how do, first of all, do 
you see us stepping into the gap and filling it? And if not, 
then how do we, I'm talking about the Federal Government now, 
how do we still address the problem, which is not necessarily 
getting much better?
    Mr. Walters. Let me take the budget question first. We have 
been working with HHS and others because we are concerned. 
We're going to put more money into treatment, but the net 
result is not going to be what we want, because there will be a 
cutback in the contributed resources from States and 
localities, because they're cutting back. As you know, many of 
these programs have maintenance of effort provisions that we 
are trying to be more scrupulous in reminding officials about. 
I recognize when they have a budget deficit they've got to cut 
somewhere.
    But the fact is, as you said, you have to make a case and 
you have to make the argument about what the priority and the 
responsibilities are to maintain these efforts. I have been to 
States where they are concerned that centers are going to 
close, these treatment centers are going to close because of 
the cutbacks. It's not so easy to turn those back after they've 
been taken down.
    So we're trying to work to make sure that we have both 
flexibility in the program that as you know the President 
offered and that we seek support for on treatment, would allow 
us to use vouchers also in targeted areas where on the basis of 
need and a plan to meet that need. So it gives us more 
flexibility than we would have with some of the, we're 
maintaining the block grant but the current block grant, which 
does distribution simply on the basis of population, doesn't 
have the same kind of flexibility.
    But ultimately, we've got to bring people together. What 
I've tried to do in traveling is meet with State officials from 
Governors' offices and State legislatures, from mayors' offices 
and city council members. I was just in Atlanta a couple of 
weeks ago. I also think this touches the second part of your 
question. We have to make people safe in all neighborhoods. I 
did what I did with you, and I think it is important, the 
leadership I saw when you did this is--we have to walk into the 
neighborhoods that are now threatened. We have to provide, both 
give them hope, but also we've got to do more than give them 
false hope. We have to make the problem smaller, we have to 
make more people safe. It will not happen, as you know, 
overnight.
    But also, my office is collecting data on major 
metropolitan areas that have been particularly affected. That 
data includes where there are treatment sites, where there are 
drug courts, where there is particular known need for 
prevention and community coalition resources, on where there is 
need that's not met. It includes data on where there are open 
air drug markets. And what we want to do is sit down with the 
people who are carrying the freight and in many cases feel 
they're not being supported and bring the press and bring the 
civic leaders and bring the political leaders together, 
Federal, State and local, and say, what are our goals, how do 
we make the problem smaller in a concrete way, not just 
everybody says they want to do something, everybody talks about 
how they care, and they all go home.
    We want to come back to these areas on a regular basis, 
several times a year with myself and my deputies. That's a job 
that we have not taken at this office. We've been responsible 
for programs and budget. We need to maintain that 
responsibility. But what we also need to do, we need to make 
sure that the deployment and the leadership is being supported 
by what we're doing nationally. It will not be easy. It will 
not work in every place. But I've made the decision with my 
staff to go in and be more of a catalyst at the local level.
    Mr. Cummings. One quick comment. I just hope that when you 
talk about victories, I hope that you will find time, we will 
get this bill done, the reauthorization done, and the Dawson 
piece will be in there. And I will never forget the statement 
that you made at the funeral for those six family members, in 
saying that you would not let the Dawson family die in vain. I 
hope that you'll come back to Baltimore and stand with us in 
Baltimore to let the drug dealers know that we're trying to do 
something to make sure that they don't have their way. Because 
that's part of the process, Mr. Chairman. We've got to do those 
kinds of things. I hope you will come back.
    Mr. Walters. I will. Thank you.
    Chairman Tom Davis. Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman, and thank you, Mr. 
Walters.
    You spoke earlier of some dissatisfaction with some members 
over our gun strategy and of course with your own 
dissatisfaction, your own commitment to fixing whatever's wrong 
with it. You spoke also of the fact that dissatisfaction comes 
from the fact that drug use isn't going down.
    I have a question about ad strategy. With some apology, I 
wasn't here the entire time, two or three other hearings are 
going on at the same time. I want to make this observation, 
however. The ad business, particularly if you consider that 
most people get their information from the visual and radio 
media, the ad business has changed markedly, some of it good, 
some of it bad. There's a niche market for everything on the 
one hand.
    The bad part about that is, it keeps us from being one 
America. If everybody doesn't look at something that's the 
same, then are we one people any more? Of course, the 
electronic media, new technology helped push the notion toward 
niche media, and of course, different strokes for different 
folks, that makes some sense. Where we are now is that niche 
media controls everything. I mean, it's not even young adults 
any more. It's not even teens any more. It's teens between X 
and Y who look only at certain things. It's young adults who 
are at a certain sector of the 20's and those who are at 
another sector of the 20's. Nobody even thinks about 18 to 35 
any more. That's just how much of niches we've become.
    Now, let me be clear. The racial niches are very worrisome 
to me on the one hand, they are reality, on the other hand. The 
reason has been the growth of black radio, and it's one of the 
huge growth industries in the media. It's because black people 
listen to this black radio. There's black talk radio, they 
listen to the black music, we've got black proms and white 
proms, God help us.
    So folks are definitely into their own media. So Members of 
Congress have to make sure they're on all the niches or they've 
only spoken to small parts of their own constituents. And no 
question in my mind that if you are going to deal with drugs in 
inner cities that you're going to have to get into not only 
black radio and Hispanic radio, but into niches within niches 
of those. And if drug use is not going down in those 
communities, I am left to wonder if some of it doesn't have to 
do with the very finely tuned expertise it takes to know even 
how to reach the communities that are most vulnerable.
    In our communities, those most vulnerable to drugs are the 
least advantaged, the most inner of the inner cities, the 
places where there's no other opportunity and therefore, 
particularly for a young black boy, those are the ones that are 
most likely to get into drugs. When you see these huge 
opportunities out here for drug dealing and no opportunities 
for jobs in your community, for too many the temptation becomes 
overwhelming, especially given the fact that one of the great 
problems in our community is the growth of female headed 
households.
    I need to ask you then, the extent to which you are getting 
advice on minority media, what percentage of this huge media 
budget goes to minority media, what kind of experts are you 
using so that we can get at what is the worst part of the 
problem, and that's the drug dealing in the minority community 
that has led to what in this city and across the United States 
amounts to escalated crime in those communities.
    Mr. Walters. Thank you. I think that while there's been a 
kind of fragmenting of markets, that from the point of view of 
what this task is, that's helpful to us. It allows us to 
deliver messages, different messages that are going to work. 
We've learned that one size doesn't fit all. The campaign has, 
I think, a proud history, and I'll be happy to supply the 
contractors, because I think they deserve recognition, for the 
record. I don't have them off the top of my head.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T8015.018
    
    [GRAPHIC] [TIFF OMITTED] T8015.019
    
    Ms. Norton. I wish you would submit them so the Chairman 
can get them.
    Mr. Walters. Sure. Provide both content and provide advice 
on buying slots to place that content. Because we do have both 
different groups we're trying to reach. But we also have 
adults, parents and young people. And so we are able, I think 
this kind of allows us to do a parallel to smart bomb 
technology. It allows us to put the message in the audience 
that we need to reach and not just rely on whatever seepage 
there is when we know that one size doesn't fit all.
    Now, there are a lot of markets, and we're also providing 
material in writing, languages with particular ethnic 
populations. But I think we have a good record in regard to 
especially ethnic groups that have been particularly suffering 
from this. So I'm proud to provide that. I'll give you all the 
details for the record.
    Ms. Norton. I would very much appreciate that. Finally, let 
me say how pleased I am to note that apparently for the first 
time, the bill is going to require the development of a uniform 
set of data, allowing some standard evaluation of all the drug 
treatment programs. Now, we have them popping up all over the 
place, people who think they can talk to people and get people 
off drugs. I very much welcome the notion of evaluating what a 
professional drug treatment operation should look like, so that 
we can ferret out some of this stuff that comes forward.
    My question goes to early treatment. Because young people 
in the inner cities are so exposed to drugs so early, if one 
can get early treatment that amounts to prevention. And I note 
your interest and concern with marijuana, I'm right there with 
you, because that's such an entry level drug. I wonder what 
part of your operation, and I recognize the agencies that deal 
with this on the one hand, but what part of your operation 
influences treatment and the funding that goes into treatment?
    And again, I am really not focused on people who are hard 
core, understand their needs. I am here focusing on young 
people who will get a weed early in life. I'm focusing on the 
schools, I'm focusing on early treatment before somebody gets 
hooked. Does your office have any substantial influence on what 
amounts to what I can only call chronic complaints about the 
absence of treatment? And here I'm not asking you to focus on 
that whole humongous thing, because I know what that can mean. 
But particularly given your interest in prevention, whether you 
have any influence on, whether your office has any influence on 
early treatment that might in fact amount to preventing 
especially young people from moving on to harder drugs.
    Mr. Walters. Yes, my deputy for demand reduction, Dr. 
Andrea Barthwell, has been working with HHS extensively over 
the last year. HHS has just released an announcement for a 
series of grants that will focus on early intervention.
    We agree that if we're going to take the disease of 
addiction seriously, we ought to be clear. The way this disease 
is spread is by non-addictive users who are usually young 
people who initiate other of their peers. The carriers of this 
disease are the young people who have already broken the 
boundary of prevention and have now begun to use.
    We have very cost effective and demonstrated efforts that 
can start with education, that can start with more intensive 
followup depending on the involvement of the individual. As I 
said earlier, I'm not sure whether you were here or at the 
other hearing, of the 6 million people we have to treat because 
of abuse or dependence on illegal drugs, 23 percent are 
teenagers. Many of them are in schools. They're in faith 
communities, they're in after school activities, they're 
obviously in their homes.
    We have to do a better job of recognizing the symptoms and 
giving people a place to go when they recognize it. Too many 
times denial is not only part of the disease, it's denial of 
the people around those who suffer from the disease. Some of 
that is because they don't know what to do. What we're going to 
try to do with the media campaign in the next year, as I said, 
is do a better job of informing the public and its many parts 
of what intervention is needed, why it's valuable, why it's 
important to support intervention and recovery. And then what 
to do, where to go.
    And we're trying to do, with HHS, expand those programs 
that will be there. In addition, we're trying with the 
treatment proposal of the President to increase the number of 
people who can provide it. We would like to see more community 
clinics, other types of community institutions, more 
pediatricians take on substance abuse as a sub-specialty, more 
general practitioners. More knowledge in emergency room and 
trauma centers, when people come in after we know that there's 
extensive problems driving under the influence of drugs.
    Wherever we see people in the system, schools, hopefully we 
can even enlist faith institutions as well as those who enter 
the criminal justice system. In many places we have juveniles, 
we don't have enough juvenile drug courts. We should be able to 
get people the first time they come in, get them in earlier. 
All the evidence shows that the earlier intervened, the more 
promising the prognosis. We have to use that knowledge more 
effectively.
    Ms. Norton. Thank you, Mr. Walters, and thank you, Mr. 
Chairman.
    Mr. Souder [assuming Chair]. Thank you today for your 
participation. I will continue to work through a number of 
these issues, including the constantly difficult question of 
how to find specialty media expertise, and how to target all 
the different sub-markets, whether they be Native Americans, 
rural areas or urban areas.
    One of the unusual things about this authorizing bill is 
that some things you have direct control over, like the ad 
campaign, and the HIDTAs, where we have details in the bill. 
And in other things, you have the indirect ability to oversee 
and influence all, including treatment. So our oversight 
responsibilities sometimes are oversight, sometimes are 
authorizing. It's led to an unusual bill and your office is an 
unusual office.
    But we thank you very much for your leadership and the time 
you spent with us not only here, but in many oversight 
hearings.
    Mr. Walters. Thank you. Thank you all for your help. I 
appreciate it.
    Mr. Souder. With that, the hearing stands adjourned.
    [Whereupon, at 12:25 p.m., the committee proceeded to other 
business.]
    [The prepared statement of Hon. Wm. Lacy Clay and 
additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] T8015.020

[GRAPHIC] [TIFF OMITTED] T8015.021

[GRAPHIC] [TIFF OMITTED] T8015.022

[GRAPHIC] [TIFF OMITTED] T8015.023

[GRAPHIC] [TIFF OMITTED] T8015.024

[GRAPHIC] [TIFF OMITTED] T8015.025

[GRAPHIC] [TIFF OMITTED] T8015.026

[GRAPHIC] [TIFF OMITTED] T8015.027

[GRAPHIC] [TIFF OMITTED] T8015.028

[GRAPHIC] [TIFF OMITTED] T8015.029

[GRAPHIC] [TIFF OMITTED] T8015.030

[GRAPHIC] [TIFF OMITTED] T8015.031

[GRAPHIC] [TIFF OMITTED] T8015.032

[GRAPHIC] [TIFF OMITTED] T8015.033

[GRAPHIC] [TIFF OMITTED] T8015.034

[GRAPHIC] [TIFF OMITTED] T8015.035

[GRAPHIC] [TIFF OMITTED] T8015.036

[GRAPHIC] [TIFF OMITTED] T8015.037

[GRAPHIC] [TIFF OMITTED] T8015.038

[GRAPHIC] [TIFF OMITTED] T8015.039

[GRAPHIC] [TIFF OMITTED] T8015.040

[GRAPHIC] [TIFF OMITTED] T8015.041

[GRAPHIC] [TIFF OMITTED] T8015.042

[GRAPHIC] [TIFF OMITTED] T8015.043

[GRAPHIC] [TIFF OMITTED] T8015.044

[GRAPHIC] [TIFF OMITTED] T8015.045

[GRAPHIC] [TIFF OMITTED] T8015.046

[GRAPHIC] [TIFF OMITTED] T8015.047

[GRAPHIC] [TIFF OMITTED] T8015.048

[GRAPHIC] [TIFF OMITTED] T8015.049

[GRAPHIC] [TIFF OMITTED] T8015.050

[GRAPHIC] [TIFF OMITTED] T8015.051

[GRAPHIC] [TIFF OMITTED] T8015.052

[GRAPHIC] [TIFF OMITTED] T8015.053

[GRAPHIC] [TIFF OMITTED] T8015.054

[GRAPHIC] [TIFF OMITTED] T8015.055

[GRAPHIC] [TIFF OMITTED] T8015.056

[GRAPHIC] [TIFF OMITTED] T8015.057

[GRAPHIC] [TIFF OMITTED] T8015.058

[GRAPHIC] [TIFF OMITTED] T8015.059

[GRAPHIC] [TIFF OMITTED] T8015.060

[GRAPHIC] [TIFF OMITTED] T8015.061

[GRAPHIC] [TIFF OMITTED] T8015.062

[GRAPHIC] [TIFF OMITTED] T8015.063

[GRAPHIC] [TIFF OMITTED] T8015.064

[GRAPHIC] [TIFF OMITTED] T8015.065

[GRAPHIC] [TIFF OMITTED] T8015.066

[GRAPHIC] [TIFF OMITTED] T8015.067

[GRAPHIC] [TIFF OMITTED] T8015.068

[GRAPHIC] [TIFF OMITTED] T8015.069

[GRAPHIC] [TIFF OMITTED] T8015.070

[GRAPHIC] [TIFF OMITTED] T8015.071

[GRAPHIC] [TIFF OMITTED] T8015.072

[GRAPHIC] [TIFF OMITTED] T8015.073

[GRAPHIC] [TIFF OMITTED] T8015.074

[GRAPHIC] [TIFF OMITTED] T8015.075

[GRAPHIC] [TIFF OMITTED] T8015.076

[GRAPHIC] [TIFF OMITTED] T8015.077

[GRAPHIC] [TIFF OMITTED] T8015.078

[GRAPHIC] [TIFF OMITTED] T8015.079

[GRAPHIC] [TIFF OMITTED] T8015.080

[GRAPHIC] [TIFF OMITTED] T8015.081

[GRAPHIC] [TIFF OMITTED] T8015.082

[GRAPHIC] [TIFF OMITTED] T8015.083

[GRAPHIC] [TIFF OMITTED] T8015.084

[GRAPHIC] [TIFF OMITTED] T8015.085

[GRAPHIC] [TIFF OMITTED] T8015.086

[GRAPHIC] [TIFF OMITTED] T8015.087

[GRAPHIC] [TIFF OMITTED] T8015.088

[GRAPHIC] [TIFF OMITTED] T8015.089

[GRAPHIC] [TIFF OMITTED] T8015.090

[GRAPHIC] [TIFF OMITTED] T8015.091

[GRAPHIC] [TIFF OMITTED] T8015.092

[GRAPHIC] [TIFF OMITTED] T8015.093

[GRAPHIC] [TIFF OMITTED] T8015.094

[GRAPHIC] [TIFF OMITTED] T8015.095

[GRAPHIC] [TIFF OMITTED] T8015.096

[GRAPHIC] [TIFF OMITTED] T8015.097

[GRAPHIC] [TIFF OMITTED] T8015.098

[GRAPHIC] [TIFF OMITTED] T8015.099

                                   - 

</pre></body></html>
